TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      While Examinations of High-Income
                   Taxpayers Have Increased, the Impact on
                         Compliance May Be Limited



                                           July 25, 2006

                              Reference Number: 2006-30-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   July 25, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – While Examinations of High-Income Taxpayers
                               Have Increased, the Impact on Compliance May Be Limited
                               (Audit # 200530015)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) examinations of high-income taxpayers1 provided efficient and effective
 coverage.

 Synopsis
 The IRS has increased its examination coverage rate2 of high-income taxpayers. However, the
 increased coverage has been due largely to an increase in correspondence examinations,3 which
 limit the tax issues the IRS can address in comparison with face-to-face examinations. In


 1
   The IRS considers high-income taxpayers to be those who file a U.S. Individual Income Tax Return (Form 1040)
 with Total Positive Income (TPI) of $100,000 or more and those business taxpayers who file a Form 1040 with
 Total Gross Receipts of $100,000 or more on an attached Profit or Loss From Business (Schedule C) or Profit or
 Loss From Farming (Schedule F). Generally, the TPI is calculated by using only positive income values from
 specific income fields on the tax return and treats losses as a zero. For example, a tax return filed with wages of
 $90,000, interest of $12,000, and a $25,000 loss from an interest in a partnership would have a TPI totaling
 $102,000 and be considered a high-income tax return by the IRS.
 2
   The examination coverage rate is calculated by dividing the number of examined returns in a category by the
 number of returns in the same category filed in the previous year.
 3
   Correspondence examinations are important compliance activities focusing on errors and examination issues that
 typically can be corrected by mail. They are conducted by sending the taxpayer a letter requesting verification of
 certain items on the tax return. These examinations are much more limited in scope than office and field
 examinations in which examiners meet face to face with taxpayers to verify information.
                  While Examinations of High-Income Taxpayers Have Increased,
                           the Impact on Compliance May Be Limited



addition, the compliance effect may be limited because over one-half of all high-income taxpayer
examination assessments are not collected timely.
The examination coverage rate of high-income taxpayers increased from 0.86 percent in
Fiscal Year (FY) 2002 to 1.53 percent in FY 2005. Included in this statistic is an increase in the
examination coverage rate of high-income tax returns, U.S. Individual Income Tax Returns
(Form 1040) with a Profit or Loss From Business (Schedule C). This examination coverage rate
increased from 1.45 percent in FY 2002 to 3.52 percent in FY 2005. However, the increase in
examination coverage is due largely to an increase in correspondence rather than face-to-face
examinations. While face-to-face examinations increased by 25 percent from FYs 2002 through
2005, correspondence examinations increased by 170 percent over the same period.
As a result, the percentage of all high-income taxpayer examinations completed through the
Correspondence Examination Program grew from 49 percent in FY 2002 to 67 percent in
FY 2005. The increase in correspondence examinations for high-income taxpayers who filed a
Schedule C was even larger. Examinations closed by correspondence comprised about
30 percent of all high-income taxpayer Schedule C examinations from FYs 2002 through 2004.
In FY 2005, approximately 54 percent of all high-income taxpayer Schedule C examinations
were conducted by correspondence.
High-income households typically have a large percentage of their income not subject to
third-party information reporting and withholding. The absence of third-party information
reporting and withholding is associated with a relatively higher rate of underreporting of income
among business taxpayers. It is difficult to determine through correspondence examination
techniques whether these taxpayers have reported all of their income.
In FY 2004, the IRS assessed over $2.1 billion in additional taxes on high-income taxpayers
through its Examination program. This figure includes assessments of $1.4 billion (66 percent)
on taxpayers who did not respond to the IRS during correspondence examinations. Based on our
statistical sample of cases,4 we estimate approximately $1.2 billion5 (86 percent) of the
$1.4 billion has been either abated6 or not collected after an average of 608 days, almost 2 years,
from the date of assessment. The Examination and Collection programs for high-income
taxpayers may not be positively affecting compliance given the substantial assessments that have
been abated or not collected.




4
  We selected our sample from cases completed in FY 2004 to provide sufficient time for collection activities.
5
  Margin of error + 5.05 percent.
6
  Abatement occurs when the IRS reduces an assessment, in this case from reversing examination findings that had
uncovered apparent misreported income, deductions, credits, exemptions, or other tax issues.
                                                                                                                   2
                While Examinations of High-Income Taxpayers Have Increased,
                         the Impact on Compliance May Be Limited




Recommendation
We recommended the Directors, Examination and Collection, complete their plan to maximize
the compliance effect of high-income taxpayer examinations. This should include the mixture of
examination techniques, issues examined, and collection procedures.

Response
The IRS agreed with our recommendation. Management will continue their current plan to
maximize the compliance efforts with a mixture of examination techniques, issues examined, and
collection procedures. Management’s complete response to the draft report is included as
Appendix V.
Copies of this report are also being sent to IRS officials affected by the report recommendation.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at 202-622-8500.




                                                                                                    3
                      While Examinations of High-Income Taxpayers Have Increased,
                               the Impact on Compliance May Be Limited




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Examination Coverage of High-Income Taxpayers Has Increased,
          Particularly in Examinations Conducted by Correspondence ......................Page 3
          While Examination Coverage of High-Income Taxpayers
          Has Increased, the Impact on Compliance May Be Limited ........................Page 5
                    Recommendation 1:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Issues Examined in High-Income Taxpayer
          Schedule C Cases..........................................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 16
                   While Examinations of High-Income Taxpayers Have Increased,
                            the Impact on Compliance May Be Limited




                                             Background

The Internal Revenue Service (IRS) recently released its first new tax gap estimate in several
years. The IRS estimates the tax gap for 2001 was $345 billion. The tax gap is the difference
between total Federal taxes owed and total taxes paid. Historically, the majority of the taxpayers
that make up the tax gap are:
    •    Individuals who underreport their income or claim too many credits or deductions.
    •    Individuals who simply did not file tax returns or pay any tax at all.
    •    Individuals who did not pay self-employment taxes.
For the 2001 estimate, individual underreporting alone accounted for more than one-half of the
total tax gap. The added burden of the tax gap on taxpayers is very real. The IRS National
Taxpayer Advocate recently testified1 that the tax gap added about $2,000 to the average tax bill
in 2001.
The IRS conducts various enforcement actions in an effort to reduce the tax gap. Since
Fiscal Year (FY) 2000, the Small Business/Self-Employed (SB/SE) Division has researched
ways to better identify tax returns of potentially noncompliant high-income taxpayers to increase
the numbers of tax returns examined for this taxpayer population. In FY 2005, examinations of
high-income taxpayers were at their highest level since FY 1996. The IRS considers
high-income taxpayers to be those who file a U.S. Individual Income Tax Return (Form 1040)
with Total Positive Income (TPI)2 of $100,000 or more and those business taxpayers who file a
Form 1040 with Total Gross Receipts of $100,000 or more on an Profit or Loss From Business
(Schedule C) or on an attached Profit or Loss From Farming (Schedule F).
When processing income tax returns, the IRS categorizes high-income returns by TPI levels. All
returns with a TPI greater than $100,000 that were filed before January 1, 2005, were in the same
category. For returns filed on and after January 1, 2005, the IRS established several codes that
provided tiered levels of TPI greater than $100,000.
The IRS conducts examinations of taxpayer returns through two techniques: (1) correspondence
examinations are conducted by sending the taxpayer a letter requesting verification of certain


1
  Testimony of Nina E. Olson, National Taxpayer Advocate, before the Senate Committee on Finance on the Tax
Gap and Tax Shelters, July 2004.
2
  Generally, the TPI is calculated by using only positive income values from specific income fields on the tax return
and treats losses as a zero. For example, a tax return filed with wages of $90,000, interest of $12,000, and a
$25,000 loss from an interest in a partnership would have a TPI totaling $102,000 and be considered a high-income
tax return by the IRS.
                                                                                                             Page 1
                    While Examinations of High-Income Taxpayers Have Increased,
                             the Impact on Compliance May Be Limited



items on the tax return and (2) office and field examinations are conducted by examiners who
hold face-to-face meetings with taxpayers to verify information. We initiated our review
because of the high percentage of correspondence examinations we reported in March 2005.3
This review was performed at the SB/SE Division Office of Examination Planning and Delivery
in New Carrollton, Maryland, during the period July 2005 through February 2006. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
    Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055, dated March 2005).
                                                                                                       Page 2
                   While Examinations of High-Income Taxpayers Have Increased,
                            the Impact on Compliance May Be Limited




                                      Results of Review

Examination Coverage of High-Income Taxpayers Has Increased,
Particularly in Examinations Conducted by Correspondence

The examination coverage rate of high-income taxpayer returns has increased
The IRS has increased its examination coverage4 of high-income taxpayers. According to data
from the IRS Audit Information Management System (AIMS),5 the examination coverage rate of
high-income taxpayers rose from 0.86 percent in FY 2002 to 1.53 percent in FY 2005. The IRS
examined 219,208 high-income returns in FY 2005, the highest number since 1996.
Included in this statistic is an increase in the examination coverage rate of high-income
Form 1040 tax returns with a Schedule C, which rose from 1.45 percent in FY 2002 to
3.52 percent in FY 2005.

Both face-to-face and correspondence examinations of high-income taxpayers
have increased significantly
As Figure 1 indicates, the overall increase in the examination coverage of high-income taxpayers
is due largely to an increase in the number of correspondence examinations. The number of
high-income taxpayer examinations conducted by office interview or field (face-to-face)
examination increased by 25 percent from FYs 2002 through 2005. This is a significant
achievement because these examinations are more complex and time-consuming than
correspondence examinations. Correspondence examinations increased by 170 percent over the
same period, resulting in the percentage of all high-income taxpayer examinations closed by
correspondence examination growing from 49 percent in FY 2002 to 67 percent in FY 2005.
The IRS was able to increase correspondence examinations at a greater rate because they are
much less time-consuming than face-to-face examinations.




4
  The examination coverage rate is calculated by dividing the number of examined returns in a category by the
number of returns of the same category filed in the previous year.
5
  The AIMS is a computer system used by the Appeals, Examination, and Tax Exempt and Government Entities
functions to control tax returns, input assessments/adjustments to the Master File and provide management reports.
The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                           Page 3
                 While Examinations of High-Income Taxpayers Have Increased,
                          the Impact on Compliance May Be Limited



          Figure 1: Overall Growth of High-income Taxpayer Examinations

                        250000

                        200000


                        150000
  Number of Closed                                                                           67 %
                                                                           66 %
    Examinations
                        100000                           56 %
                                        49 %

                         50000
                                       51 %              44 %              34 %              33 %

                              0
                                      FY 2002          FY 2003           FY 2004           FY 2005
   Number of Cases Closed By          54,642            77,609            129,595          147,392
   Correspondence
   Percent of Cases Closed By           49%              56%               66%               67%
   Correspondence
   Number of Cases Closed By          57,624            61,770            65,501            71,816
   Office/Field
   Percent of Cases Closed By           51%              44%               34%               33%
   Office/Field

Source: Treasury Inspector General for tax Administration (TIGTA) analysis of AIMS closed case data for
FYs 2002 through 2005.

The IRS can reach more taxpayers at a lower cost through correspondence examinations than
through more labor-intensive, face-to-face examinations, thereby increasing the coverage rate.
Correspondence examinations are very important to ensure compliance with tax laws; however,
they focus on errors and examination issues that typically can be corrected by mail. By their
nature, correspondence examinations are less complex and issues are limited, in comparison with
face-to-face examinations.
High-income households typically have a large percentage of their income not subject to the
third-party information reporting and withholding requirements applied to income such as wages,
dividends, and Social Security benefits. It is difficult to determine through correspondence
examination techniques whether these taxpayers have reported all of their income. Unreported
income from individuals represents over one-half of the $345 billion tax gap.




                                                                                                          Page 4
                  While Examinations of High-Income Taxpayers Have Increased,
                           the Impact on Compliance May Be Limited



In July 2004, the National Taxpayer Advocate testified6 that the largest portion of the tax gap
arises from underreporting of income by individuals with business income (Schedule C).
Individual business income underreporting has two components: underreporting of business
receipts and overreporting of business expenses. The relatively high rate of underreporting of
income among business taxpayers is due largely to the absence of third-party information
reporting. In addition, many high-income taxpayers have resources to avail themselves of
sophisticated methods of tax avoidance. Examinations closed by correspondence comprised
about 30 percent of all high-income taxpayer Schedule C examinations from FYs 2002 through
2004. In FY 2005, approximately 54 percent of all high-income taxpayer Schedule C
examinations were correspondence examinations. These types of taxpayers and issues are very
difficult to examine through correspondence.
In November 2003, we reported7 that correspondence examinations did not always address
strategic noncompliance priorities and, in FY 2003, Earned Income Tax Credit cases alone made
up 33 percent of the SB/SE Division’s Campus Correspondence Examination Program inventory.
In our current review, we again found that in many cases an issue associated with the taxpayer’s
business may not have been the reason for selection of the return for correspondence
examination.
We analyzed the IRS Examination Operational Automation Database (EOAD), which captures
information on examinations closed and the issues under examination. EOAD data showed there
were 19,966 high-income taxpayer Schedule C cases closed by correspondence examination in
FY 2005 in which the issue field in the database was completed. We determined that issues
pertaining to the taxpayers’ businesses in these cases were present only 22 percent of the time.
The remaining 78 percent pertained to issues such as exemptions claimed, qualifying child for
the Child Care credit, and other nonbusiness issues (see Appendix IV for more information on
the EOAD analysis).

While Examination Coverage of High-Income Taxpayers Has
Increased, the Impact on Compliance May Be Limited
Because the trend in high-income taxpayer examinations is moving towards correspondence, the
source of dollars assessed on high-income taxpayers has likewise shifted from the office or field
examination program to the Correspondence Examination Program. Figure 2 shows that, from
FY 2002 through FY 2005, the percentage of high-income taxpayer examination dollar
assessments from cases conducted by office interview or field examination decreased from
65 percent to 42 percent. During this same period, the percentage from cases closed by

6
  Testimony of Nina E. Olson, National Taxpayer Advocate, before the Senate Committee on Finance on the Tax
Gap and Tax Shelters, July 2004.
7
  Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers Could Be Addressed Through
More Effective Use of Correspondence Examinations (Reference Number 2004-30-005, dated November 2003).
                                                                                                     Page 5
                  While Examinations of High-Income Taxpayers Have Increased,
                           the Impact on Compliance May Be Limited



correspondence examination increased from 35 percent to 58 percent. Also, the percentage from
cases closed by correspondence examination in which the taxpayer did not respond to the IRS
during the examination increased from less than 9 percent to 49 percent. No-response cases
include those for which the tax assessment notice came back undeliverable or the taxpayer
simply did not respond.
 Figure 2: High-Income Taxpayer Examinations and Assessments by Fiscal Year
                                                      FY 2002      FY 2003        FY 2004        FY 2005
                  Number of Examinations               112,266      139,379        195,096        219,208
    Totals All
                  Additional Tax Assessments      $382,736,506 $976,499,668 $2,199,410,130 $6,059,694,199
  Examinations
                  Average Assessment                    $3,409       $7,006        $11,273        $27,644

                  Number of Examinations                57,624       61,770          65,501         71,816
                  Additional Tax Assessments      $248,149,111 $406,020,400    $537,564,124 $2,535,232,344
   Office/Field
                  Average Assessment                    $4,306       $6,573          $8,207        $35,302
                  Percentage of Total Assessments         65%          42%             24%            42%

                Number of Examinations                54,642       77,609        129,595        147,392
       All      Additional Tax Assessments      $134,587,395 $570,479,268 $1,661,846,006 $3,524,461,855
 Correspondence Average Assessment                    $2,463       $7,351        $12,823        $23,912
                Percentage of Total Assessments         35%          58%            76%            58%

                Number of Examinations                    3,267       17,395         53,559         42,838
 Correspondence
                Additional Tax Assessments          $34,267,006 $400,209,126 $1,444,828,800 $2,969,095,382
     Without
                Average Assessment                      $10,489      $23,007        $26,976        $69,310
   Responses
                Percentage of Total Assessments             9%          41%            66%            49%

                Number of Examinations                51,375       60,214            76,036        104,554
 Correspondence Additional Tax Assessments      $100,320,389 $170,270,142      $217,017,206   $555,366,473
 With Responses Average Assessment                    $1,953       $2,828            $2,854         $5,312
                Percentage of Total Assessments         26%          17%               10%             9%
Source: TIGTA analysis of AIMS closed case data for FYs 2002 through 2005.

IRS officials advised that these numbers were affected by a significantly large backlog of
High-Income Nonfiler (HINF) cases that existed prior to FY 2003. These are cases in which
taxpayers had not filed tax returns; however, the IRS had third-party information showing the
taxpayer had substantial income but insufficient credits, resulting in an apparent balance-due
condition. On these HINF cases, the IRS computed the tax based upon the third-party
information and sent the taxpayer an examination assessment letter. Management believed the
correspondence examination technique was the correct treatment of these taxpayers, and these
cases contributed to the significant increase in correspondence examination cases.
We analyzed the results between the HINF and other cases. Figure 3 shows that HINF cases did
significantly affect the number of, and results from, high-income taxpayer cases the IRS worked
in FYs 2003 through 2005. Such cases ranged from 11 percent to 31 percent of all high-income
taxpayer examinations and from 19 percent to 66 percent of total assessments on all high-income
taxpayer cases.

                                                                                                   Page 6
                  While Examinations of High-Income Taxpayers Have Increased,
                           the Impact on Compliance May Be Limited



According to the IRS, processing this backlog by correspondence examination allowed it to
make contacts on cases that may not have been worked otherwise. Although many of the
assessments on these cases have not yet been collected, IRS officials believe establishing
assessments on these HINF cases is important and will enable the IRS to pursue other
compliance options, including criminal referrals, penalties, and other actions.
       Figure 3: Effect of HINF Cases on High-Income Taxpayer Examinations
                                   by Fiscal Year
                                                        FY 2002      FY 2003        FY 2004        FY 2005
                  Number of Examinations                 112,266      139,379        195,096        219,208
    Totals All
                  Additional Tax Assessments        $382,736,506 $976,499,668 $2,199,410,130 $6,059,694,199
  Examinations
                  Average Assessment                      $3,409       $7,006        $11,273        $27,644

                  Number of Examinations                     163       15,443         60,070         42,827
                  Percentage of Examinations                 0%          11%            31%            20%
   HINF Cases     Additional Tax Assessments          $5,764,762 $346,926,983 $1,452,474,270 $1,173,660,253
                  Average Assessment                     $35,367      $22,465        $24,180        $27,405
                  Percentage of Total Assessments            2%          36%            66%            19%

                 Number of Examinations               112,103      123,936           135,026        176,381
  High Income
                 Additional Tax Assessments      $376,971,744 $629,572,685      $746,935,860 $4,886,033,946
 Results Without
                 Average Assessment                    $3,363       $5,080            $5,532        $27,702
  HINF Cases
                 Percentage of Total Assessments         98%          64%               34%            81%
Source: TIGTA analysis of AIMS closed case data for FYs 2002 through 2005.

Figure 4 shows that assessments generated from correspondence examination cases are higher
than those generated from office interview or field examination cases. Especially notable is the
difference in assessments between correspondence examination cases with responses and
correspondence examination cases without responses, which are significantly higher. Because of
the high percentage of such cases, we plan to perform a review of the processes used to examine
returns when the taxpayer does not respond to the assessment letter.




                                                                                                   Page 7
                             While Examinations of High-Income Taxpayers Have Increased,
                                      the Impact on Compliance May Be Limited



                       Figure 4: High-Income Taxpayer Examination Assessment Dollars

                     $4,000,000,000
                     $3,500,000,000                                                      Office/Field

                     $3,000,000,000
       Assessments




                     $2,500,000,000                                                      All
                                                                                         Correspondence
                     $2,000,000,000
                     $1,500,000,000                                                      Response
                                                                                         Correspondence
                     $1,000,000,000
                      $500,000,000                                                       No Response
                                                                                         Correspondence
                                $0
                                      FY 2002   FY 2003   FY 2004   FY 2005


    Source: TIGTA analysis of AIMS closed case data for FYs 2002 through 2005.

The compliance impact of high-income taxpayer examinations is limited because
a significant percentage of the assessments are abated or not collected
In FY 2004, the IRS assessed over $2.1 billion in additional taxes on high-income taxpayers
through its Examination program. This figure includes assessments of $1.4 billion (66 percent)
on taxpayers who did not respond to the IRS during correspondence examinations. Because
these no-response cases represented the major portion of the dollar assessments, we selected a
statistically valid sample of cases in which the taxpayers did not respond.8 Based on the results
of our sample, we estimate approximately $1.2 billion9 (86 percent) of the $1.4 billion has been
either abated10 or not collected after an average of 608 days, almost 2 years, from the date of
assessment. Of this $1.2 billion, we estimate over $216 million in assessments have been abated
and $992 million in assessments have not yet been collected. Our sample was taken from only
HINF no-response correspondence cases. Therefore, the total uncollected or abated figures
could be higher because taxes for some of the cases in other categories also may not have been
paid.
Based on the age of the uncollected assessments, collection opportunities may be limited.
Approximately 60 percent of the uncollected assessments in our sample are in the Collection


8
  We selected our sample from cases completed in FY 2004 to provide sufficient time for collection activities.
9
  Margin of error +5.05 percent.
10
   Abatement occurs when the IRS reduces an assessment, in this case from reversing examination findings that had
uncovered apparent misreported income, deductions, credits, exemptions, or other tax issues.
                                                                                                          Page 8
                   While Examinations of High-Income Taxpayers Have Increased,
                            the Impact on Compliance May Be Limited



function Queue inventory.11 While this inventory is a source of work for Collection Field
function employees, a significant amount may never be worked. Any future refunds could be
applied to the balance due on these cases; however, the probability of refunds for these types of
taxpayers is low.
The IRS has procedures for determining whether an assessment would be collectible, to increase
the quality of its assessments. This determination should be made when the assessment being
proposed exceeds the taxpayer’s current and future ability to pay. Whether the assessment
would be collectible is based on the taxpayer’s present financial condition, not when the tax
return was filed (which reflects the taxpayer’s past financial condition). However, the
procedures for determining whether an assessment would be collectible do not apply to
correspondence examination cases in which the taxpayer does not respond to the IRS during the
examination.
The results of IRS examinations should affect the condition or behavior of taxpayers, including
their compliance with the tax laws, the payment of taxes, and their perception of how fairly
taxpayers are treated. The overall effect on compliance by high-income taxpayer examinations
may be diminished because a significant amount of the assessments are not collected. As a
testimony to this principle, the IRS Commissioner has stated, “A vigorous enforcement program
is important. Americans deserve to feel confident that when they pay their taxes, neighbors and
competitors are doing the same.”12 The same holds true for those taxpayers examined and
assessed additional tax.
IRS management officials stated they are working on a plan to better identify high-income tax
returns for examination, including placing less emphasis on nonfilers. At the time of our review,
this plan was incomplete.

Recommendation
Recommendation 1: The Directors, Examination and Collection, should complete their plan
to better maximize the compliance effect of high-income taxpayer examinations. This should
include:
     •   The effectiveness of the mixture of face-to-face and correspondence examination
         techniques, including the issues examined.


11
   The Queue is an automated holding file for unassigned inventory of low-priority delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
12
   Prepared remarks of IRS Commissioner Mark W. Everson, November 18, 2004.




                                                                                                            Page 9
            While Examinations of High-Income Taxpayers Have Increased,
                     the Impact on Compliance May Be Limited



•   Procedures that would determine the collectibility of and collection priority assigned to
    assessments proposed on high-income taxpayer correspondence examination cases.
    Management’s Response: The IRS agreed with this recommendation. Management
    will continue their current plan to maximize compliance efforts with a mixture of
    examination techniques, issues examined, and collection procedures.




                                                                                       Page 10
                   While Examinations of High-Income Taxpayers Have Increased,
                            the Impact on Compliance May Be Limited



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service’s
(IRS) examinations of individual tax returns with Total Positive Income (TPI)1 of $100,000 or
more provided efficient and effective coverage. During the review, we relied on databases
maintained by the IRS. Although we did not assess the accuracy and reliability of the
information in any of the databases, we checked the accuracy and reliability of the data against
the IRS Master File.2 Our checks are described below and did not identify any material errors in
the information used from the databases. To accomplish our objective, we:
I.       Assessed the efficiency of the resources being used on high-income individual tax return
         examinations.
         A. Developed a trend analysis of examinations of individual tax returns with TPI of
            $100,000 or more using the Audit Information Management System (AIMS)3 closed
            case data for Fiscal Years (FY) 2002 through 2005. We focused on the examinations
            of individual tax returns with TPI of $100,000 or more closed by correspondence
            examination. We also stratified closed examinations of individual tax returns with
            TPI of $100,000 or more by several factors, including TPI, examination technique,
            and disposal code.

             1. Determined the growth in the examination coverage rate4 of high-income taxpayer
                examination cases. We also compared the growth of high-income taxpayer
                examination cases closed by correspondence with those closed via a face-to-face
                examination.
             2. From the Examination Operational Automation Database,5 reviewed data on
                19,966 closed examinations of high-income U.S. Individual Income Tax Returns

1
  Generally, the TPI is calculated by using only positive income values from specific income fields on the tax return
and treats losses as a zero. For example, a tax return filed with wages of $90,000, interest of $12,000, and a
$25,000 loss from an interest in a partnership would have a TPI totaling $102,000 and be considered a high-income
tax return by the IRS.
2
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
3
  The AIMS is a computer system used by the Appeals, Examination, and Tax Exempt and Government Entities
functions to control tax returns, input assessments/adjustments to the Master File, and provide management reports.
4
  The examination coverage rate is calculated by dividing the number of examined returns in a category by the
number of returns in the same category filed in the previous year.
5
  This Database captures information on examinations closed and the issues under examination.
                                                                                                            Page 11
                   While Examinations of High-Income Taxpayers Have Increased,
                            the Impact on Compliance May Be Limited



                 (Form 1040) with a Profit of Loss From Business (Schedule C) in which the issue
                 field in the database was completed, to determine the examination issues.
             3. Validated the data. We selected a random sample of 80 cases from the AIMS
                closed case data for FYs 2002 through FY 2005 to verify whether the examination
                results were posted properly to the taxpayers’ accounts by reviewing Master File
                data on the 80 cases. We used a random sample to ensure each case had an equal
                chance of being selected. This provided us with confidence that the AIMS data
                we were using was reliable.
             4. Reconciled the total high-income taxpayer examination statistics from the AIMS
                with the annual AIMS Table 10 for FYs 2002 through 2005.
II.     Selected a statistically valid random sample of 202 closed high-income individual tax
        return examination cases from FY 20046 to determine their rate of collection. Our sample
        was taken from the 46,300 High-Income Nonfiler (HINF) examination cases closed in
        FY 2004 for which the Examination Technique Code was 6 (Initiated for Interview but
        closed by Correspondence – No taxpayer response) or 7 (Initiated for and closed by
        Correspondence - No taxpayer response). We selected a random sample so we could
        project the results against the population of HINF cases closed via Technique Codes 6
        and 7. We used a confidence level of 95 percent, a precision factor of +3 percent, and an
        expected error rate of 5 percent in determining our sample size.
        A. For each case in our sample, confirmed whether the assessment was collected,
           uncollected, or abated.
        B. Determined the collection status (e.g., case was in the Collection function Queue7)
           and the age of the assessment for the uncollected cases.




6
 We selected our sample from FY 2004 cases to allow sufficient time for appropriate collection activities.
7
 The Queue is an automated holding file for unassigned inventory of low-priority delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
                                                                                                         Page 12
               While Examinations of High-Income Taxpayers Have Increased,
                        the Impact on Compliance May Be Limited



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Richard T. Hayes, Audit Manager
Timothy F. Greiner, Lead Auditor
Cynthia Dozier, Senior Auditor
Julian O’Neal, Senior Auditor
Linda Foye, Auditor
Layne Powell, Information Technology Specialist




                                                                                        Page 13
              While Examinations of High-Income Taxpayers Have Increased,
                       the Impact on Compliance May Be Limited



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 14
                   While Examinations of High-Income Taxpayers Have Increased,
                            the Impact on Compliance May Be Limited



                                                                                              Appendix IV

           Issues Examined in High-Income Taxpayer
                      Schedule C Cases

Figure 1 shows the top 201 issue categorization numbers used for high-income taxpayer
examinations of U.S. Individual Income Tax Returns (Form 1040) with a Profit or Loss From
Business (Schedule C). The shaded items specifically address business issues.
       Figure 1: Issues Examined in High-Income Taxpayer Schedule C Cases
                                   10.86%     Schedule C expense
                                   10.47%     Exemptions
                                    9.26%     Schedule C income
                                    7.97%     De Minimus – income or taxes
                                    6.09%     Contributions – 50% limit
                                    5.53%     Single filing status
                                    5.23%     Net credit adjustment
                                    5.21%     Frozen refunds
                                    4.38%     Child Credit - qualifying child
                                    3.78%     Other income
                                    2.07%     Other income - investment income
                                    1.77%     Partnership/corporation income
                                    1.55%     Credit for Federal withholding
                                              Federal Insurance Contributions Act
                                              earnings from Wage and Tax
                                    1.49% Statement (Form W-2)
                                              Tax on Individual Retirement
                                    1.48% Arrangement
                                    1.36% Married Filing Separately filing status
                                    1.27% Income taxable to self-employed only
                                    1.13% Qualifying children
                                    1.10% De Minimus - expense or credit
                                    1.05% Low income housing credit
                       Source: Our analysis of Examination Operational Automation
                       Database data.




1
 The top 20 issue categorization numbers make up 83.05 percent of the total. The remaining issue categorization
numbers each make up less than 1 percent of the total.
                                                                                                        Page 15
    While Examinations of High-Income Taxpayers Have Increased,
             the Impact on Compliance May Be Limited



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 16
While Examinations of High-Income Taxpayers Have Increased,
         the Impact on Compliance May Be Limited




                                                      Page 17
